THE KADISH LAW GROUP, P.C.
3122 SANTA MONICA BLVD., SUITE 200
SANTA MONICA, CALIFORNIA 90404
TELEPHONE (424) 239-6210
TELECOPIER (424) 239-6220
August 20, 2020
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Michael Scott Anglesey, et al. v. Allied Professionals Insurance Company, A Risk
Retention Group, Inc.
Case No.: 20-166

To the Clerk of the Court:
We represent Respondent, Allied Professionals Insurance Company, A Risk Retention
Group, Inc., in the above-referenced case. Petitioners Michael Scott Anglesey, Eliseo Gutierrez,
and Veronica Gutierrez filed their Petition for Writ of Certiorari on August 10, 2020 and the
matter was placed on the court’s docket on August 14, 2020. Respondent’s brief is due on or
before Monday, September 14, 2020. Pursuant to Rule 30.4 of the United States Supreme Court,
we request a thirty (30) day extension of time to file a brief in response to the Petition for Writ of
Certiorari. Respondent respectfully requests a due date of Wednesday, October 14, 2020.
This request is made due to delays related to COVID-19. Office closures, staffing
changes and telecommuting associated with adherence to local, county and state COVID-19
related health orders have significantly impacted the efficiency of our operations. For these
reasons, we respectfully request a thirty (30) day extension of time, until October 14, 2020 to
file a brief in response to the Petition for Writ of Certiorari.
Thank you for your time and consideration of this request.
Sincerely yours,
THE KADISH LAW GROUP, P.C.
/s/ Michael B. Kadish
Michael B. Kadish

1006.0153

Michael Scott Anglesey, et al. v. Allied Professionals Insurance Company, A Risk Retention Group, Inc.
Case No.: 20-166

AFFIDAVIT OF SERVICE
I hereby certify that on this 20th day of August, 2020, I electronically filed the extension
request letter with the Clerk of the Supreme Court for the United States through use of the
court’s electronica filing system. Participants in the case who are registered with the court will be
electronically served through the court’s filing system. Additionally, paper copies of the
referenced materials have been mailed this day, by first-class mail to:
Michael John Schroeder
Michael J. Schroeder, P.C.
1100 West Town and Country Road
Suite 1400
Orange, CA 92868
Email: mikejschroe@gmail.com
Co-counsel for Respondent Allied
Professionals Insurance Company,
A Risk Retention Group, Inc.
Andrea J. Clare, Esq.
Telaré Law PLLC
1321 Columbia Park Trail
Richland, WA 99352
andrea@telarelaw.com
Counsel for Petitioners Michael
Scott Anglesey, Eliseo Gutierrez,
and Veronica Gutierrez
Executed this 20th day of August, 2020, in Santa Monica, California.

/s/ Michael B. Kadish
Michael B. Kadish

1006.0153

